                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A11110079                                                                       Page 1 of 1



                 Potential duplicative research at a company 1 was apparent in final reports for overlapping
         SBIR awards sent to two federal agencies? The PI of the proposals 3 was able to satisfactorily
         explain differences in the research supported by the awards, and asserted that common material
         in the reports was mistakenly included. The explanations were sufficient to dispel the
         appearance of duplicative research in the Phase I award. Phase II SBIR proposals were
         submitted to both agencies, and properly mutually disclosed. Only one agency4 funded the Phase
         II award.

                  Accordingly, this case is closed.




NSF OIG Form 2 (11102)
